Nicholas Jacob Bronni
Solicitor General of Arkansas
Arkansas Attorney General's Office
323 Center St., Suite 200
Little Rock, AR 72201
501-682-6302
nicholas.bronni@arkansasag.gov
Counsel for Petitioner State of Arkansas
Elizabeth B. Prelogar
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
202-514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for Petitioner Norris Cochran,
Acting Secretary of Health and Human Services, et al.
Laura E. B. Lombardi
New Hampshire Department of Justice
33 Capitol Street
Concord, NH 03301-6397
603-271-3650
laura.lombardi@doj.nh.gov
Counsel for Petitioner New Hampshire
Department of Health and Human Services
Ian Heath Gershengorn
Jenner & Block
1099 New York Ave., NW
Suite 900
Washington, DC 20001
202-639-6869
IGershengorn@jenner.com
Counsel for Respondents Charles Gresham, et al.

